oN

OCKLE

2311 Douglas Street QA
Omaha, Nebraska 68102-1214 Legal B pied s
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
THE STATE OF WASHINGTON,
Petitioner,
v.
SAID OMER ALI,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5892 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Karee. 0, ose

Notary Public

 

i RENEE J. GOSS k
q My Comm. Exp. Seplambar 5, 2023 F

Oudrar-h, Gh ke

Affiant
40385
